®<cei
ffl

*

0
UNPUBLISHED

eC

'hr \c<^
on

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7854

jlAA^7

Mu* A5

:?/

/0

JERRY GLENDON MODISETTE,
Plaintiff - Appellant,

M<* ~fcS ohPt,

v.
UNITED STATES OF AMERICA,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (l:18-cv-00533-LO-MSN)
Submitted: May 19, 2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Jerry Glendon Modisette, Appellant Pro Se. Matthew James Mezger, OFFICE OF THE
UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

'

l " ^

*-< •

PER CURIAM:
Jerry Glendon Modisette appeals the district court’s order denying relief on his
complaint filed pursuant to the Federal Tort Claims Act, 28 U.S.C. §§ 2671-2680 (2018).
We have reviewed the record and find no reversible error. Accordingly, we affirm for the
reasons stated by the district court. Modisette v. United States, No. l:18-cv-00533-LOMSN (E.D. Va. Nov. 26, 2019). We deny Modisette’s motion to add a new party. We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

2

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 1 of 12 PagelD# 451

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Jerry Glendon Modisette,
Plaintiff,
v.

United States of America,
Defendant.

)
)
)
)
)
)
)

l:18cv533 (LO/MSN)

MEMORANDUM OPINION
Jerry Modisette, a federal inmate proceeding pro se, initiated this suit pursuant to the
Federal Tort Claims Act (“FTCA”), 28 U.S.C. §§ 1346(b) and 2671-80. Defendant United
States of America (“defendant” or “the government”) has filed a motion to dismiss or, in the
alternative, motion for summary judgment [Dkt. No. 31 -32] and a memorandum of law
accompanied by documentary exhibits [Dkt. No. 33] in support of its position. Plaintiff received
the Notice required by Local Rule 7(K) and the opportunity to file responsive materials pursuant
to Roseboro v. Garrison. 528 F.2d 309 (4th Cir. 1975). Dkt. Nos. 31-1,32-1. He filed a
response to defendant’s motion [Dkt. No. 35], defendant submitted a reply to plaintiff s response
[Dkt. No. 39], and plaintiff filed a surreply [Dkt. No. 40]. This matter is therefore ripe for
adjudication. For the reasons that follow, defendant’s motion will be granted such that several
claims will be dismissed, and judgment will enter in favor of defendant as to those that remain.
I. Background
Plaintiff is an inmate incarcerated at FCI Petersburg (“Petersburg”). Dkt. No. 4 (“Am.
Compl.”) H L* Before being transferred to his current institution of confinement, he, from at

This memorandum opinion cites specific paragraphs in plaintiffs amended complaint when
possible and ECF-assigned page numbers when referring to exhibits attached to the pleadings.
i

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 2 of 12 PagelD# 452

least January 2012 through April 2014, was incarcerated at USP Tucson (“Tucson”) in Arizona.
Id. at

8-12. At Tucson, in January 2012, plaintiff suffered a seizure and struck his head and

neck on a table while falling to the ground. Id at 8. Tucson staff were notified of the incident
and instructed plaintiff to report to medical personnel the next morning. Id. at ^ 9. Plaintiff
reported to medical as instructed and was scheduled for an x-ray. Id. at p. 8. On February 22,
2012, plaintiff saw Doctor Longfellow, who informed plaintiff he had “C2-C3 loss of disc height
and end plate irregularity.” Id. at U 10. On March 8,2012, plaintiff requested from Dr. Khan
provision of an MRI scan. Id. at 1111.
On April 8,2014, plaintiff arrived at FCI Petersburg and informed Physician Assistant
Hall that his neck was injured but that “still nothing was done in a timely manner.” Id. at 12.
At some point in late 2014 or early 2015, plaintiff underwent another x-ray examination. Id at
p. 8. On September 23,2015, plaintiff saw Orthopedist Dr. Prakash, who ordered an MRI
examination for plaintiff. Id. at U 13. Plaintiff underwent the MRI exam on November 3,2016,
after which his “injury was finally diagnosed as being multilevel mild disc herniations and
degenerative disc bulging....” Id at ^ 14. On November 6,2017, plaintiff was sent offsite to
see Dr. Prakasam Kalluri, who “did not want to operate” at that time and indicated that physical
therapy, injections, and gabapentin represented viable options to manage plaintiffs condition.
Id. at^[ 16; jd. at p. 8.
Defendant asserts that the Bureau of Prisons (“BOP”) received plaintiffs administrative
tort claim paperwork on December 28,2017, see Dkt. No. 33, p. 4, but the Court cannot identify
any documentary exhibits that support this assertion. On January 10,2018, however, BOP sent a
letter confirming receipt of plaintiffs claims. Id. at p. 9. In his paperwork, plaintiff claimed to

2

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 3 of 12 PagelD# 453

have suffered personal injuries arising from the medical care he received beginning January 15,
2012 and continuing through 2017. Id. at pp. 6-9.
On February 15,2018, plaintiff informed Petersburg staff that he had to discontinue
taking verlafaxine due to an allergic reaction he had when taking a drug in the “same class of
prescription medication.” Id. at H 17. Several days later, Dr. Marrero, a member of Petersburg
medical staff, “disapproved” of providing plaintiff with gabapentin. Id. at TJ18. On March 20,
2018, plaintiff “was taken ... for an offsite Rehabilitation” to treat his neck injury. Id.atH 19.
On May 3,2018, plaintiff filed his initial complaint, initiating this civil action. See Dkt.
No. 1. His amended complaint asserts that BOP was negligent in providing him medical care for
his neck injury. He alleges that “[tjhe carelessness and negligence of Defendant... consisted of
the following:
a.

Failure to have schedule [sic] Plaintiff for MRI when seizure occurred and
Plaintiff complained of neck injury;

b.

Failure to conform to the requisite standard of reasonable medical care and
skill under the circumstances and at the time with respect of Plaintiff;

c.

Failure to provide and render reasonable medical care to plaintiff under
the circumstances;

d.

Failure to properly select, train, and supervise it’s [sic] agents, ostensible
agents, servants and/or employees to assure Plaintiff5 s reasonable
treatment and care under the circumstances;

e.

Failure to diagnose Plaintiffs neck injury and to treat this Plaintiff s
injuries appropriately and expeditiously;

f.

Failure to ensure inmates in the Federal Bureau of Prison’s Prisons [sic]
System received adequate healthcare;

g-

Failure to ensure inmates in the Federal Bureau of Prison’s Prisons [sic]
System receive timely health care;

3

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 4 of 12 PagelD# 454

h.

Such other acts and/or omissions constituting carelessnes [sic], negligence
and/or malpractice as may become evident during the course of discovery
and/or at trial to this action.”

Dkt. No. 4,123.

On May 29,2019, defendant hand-delivered a letter to plaintiff requesting certification
that plaintiff had received an expert’s written opinion prior to service of the complaint or an
explanation as to why plaintiff felt such an opinion was unnecessary. Defendant’s Exhibit
(“DEX”) 1. Plaintiff responded that he had not obtained an expert’s opinion, citing indigence
and the geographical remoteness of his current institution to Tucson, where plaintiff accrued the
injury foundational to his claims. DEX 2. Defendant then filed the motions currently before the
Court through which it seeks dismissal of plaintiff s claims or entry ofjudgment in its favor.
Dkt. Nos. 31-32.
II. Standard of Review
A.

Motion to Dismiss for Lack of Subiect-Matter Jurisdiction
Pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure, the Court may dismiss

a complaint or its claims for lack of subject-matter jurisdiction. Fed. R. Civ. P. 12(b)(1). When
a defendant challenges the existence of subject-matter jurisdiction, the Court may “regard the
pleadings as mere evidence on the issue [ ] and may consider evidence outside [the] pleadings
without converting the proceeding to one for summary judgment.” Richmond, Fredericksburg &
Potomac R. Co. v. United States. 945 F.2d 765,768 (4th Cir. 1991); see Virginia v. United
States. 926 F. Supp. 537, 540 (E.D. Va.1995) (noting that, upon a defendant’s challenge to the
existence of subject-matter jurisdiction, the court is to “look beyond the j urisdictional allegations
of the complaint and view whatever evidence has been submitted on the issue to determine
whether in fact subject[-]matter jurisdiction exists”). As the party asserting jurisdiction, it is

4

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 5 of 12 PagelD# 455

plaintiffs burden to prove that federal jurisdiction over his claim is proper. McNutt v. General
Motors Acceptance Coro.. 298 U.S. 178,189 (1936); Adams v. Bain. 697 F.2d 1213,1219 (4th
Cir. 1982).
B.

Motion for Summary Judgment
“The court shall grant summary judgment if the movant shows that there is no genuine

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a). “A dispute is genuine if a reasonable jury could return a verdict for the
nonmoving party,” and “[a] fact is material if it might affect the outcome of the suit under the
governing law.” Variety Stores v. Wal-Mart Stores. Inc.. 888 F.3d 651,659 (4th Cir. 2018).
Once the moving party has met its burden to show that it is entitled to judgment as a matter of
law, the nonmoving party “must show that there is a genuine dispute of material fact for trial...
by offering sufficient proof in the form of admissible evidence.” Id (quoting Guessous v.
Fairview Prop. Invs.. LLC. 828 F.3d 208,216 (4th Cir. 2016)). In evaluating a motion for
summary judgment, a district court should consider the evidence in the light most favorable to
the nonmoving party and draw all reasonable inferences from those facts in favor of that party.
United States v. Diebold. Inc.. 369 U.S. 654,655 (1962).
III. Analysis
The FTCA provides a limited waiver of the United States’ sovereign immunity to allow
actions seeking monetary relief for injuries “caused by the negligent or wrongful act or omission
of any employee of the Government while acting within the scope of his office or employment.”
28 U.S.C. § 1346(b)(1). The government is only “liable in the same manner and to the same
extent as a private individual under like circumstances,” 28 U.S.C. § 2674, and the extent of its
liability is determined “in accordance with the law of the place where the act or omission

5

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 6 of 12 PagelD# 456

occurred.” 28 U.S.C. § 1346(b)(1). Here, where plaintiffs allegations surround events taking
place in Arizona and Virginia, these two states’ laws govern the manner and extent to which the
United States may be liable as a defendant. Accordingly, the Arizona Medical Malpractice Act
(“AMMA”), A.R.S. § 12-561(2), and the Virginia Medical Malpractice Act (“VMMA”), Va.
Code §§ 8.01-581.1, et seq.. provide the framework upon which to analyze plaintiff s medical
malpractice claims under the FTCA. See Mann v. United States. 2012 WL 273690 (D. Anz. Jan.
31,2012) (applying AMMA in FTCA action involving federal health care providers in Arizona);
Stams v. United States. 923 F.2d 34 (4th Cir. 1991) (applying VMMA in FTCA action involving
federally operated health care providers in Virginia).
A.

Medical Malpractice Act Expert Witness Requirements
Both Virginia and Arizona state law require, in almost all circumstances, that a party

alleging medical malpractice obtain the assistance of an expert to succeed on his or her claims.
See Va. Code § 8.01-20.1 (“Every motion for judgment, counter claim, or third party claim in a
medical malpractice action, at the time the plaintiff requests service of process upon a defendant
... shall be deemed a certification that the plaintiff has obtained from an expert witness ... a
written opinion signed by the expert witness that, based upon a reasonable understanding of the
facts, the defendant... deviated from the applicable standard of care and the deviation was a
proximate cause of the injuries claimed”); see also Seisinger v. Siebel, 220 Anz. 85, 94 (2009)
(“Arizona courts have long held that the standard of care normally must be established by expert
medical testimony”).
Each state, however, has also created a narrow safety valve to allow egregious cases to
proceed without the presentation of expert testimony or certification. See Va. Code 8.01-20.1 (A
“certification is not necessary if the plaintiff, in good faith, alleges a medical malpractice action

6

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 7 of 12 PagelD# 457

that asserts a theory of liability where expert testimony is unnecessary because the alleged act of
negligence clearly lies within the range of the jury's common knowledge and experience”); see
also Nunsuch ex rel. Nunsuch v. United States. 221 F. Supp. 2d 1027, 1032-33 (D. Anz. 2001)
(“Ordinarily, a plaintiff must present expert evidence of the accepted conduct of the profession
and the defendant’s deviation from that standard unless the negligence is so grossly apparent that
a layman would have no difficulty recognizing it.”).
Plaintiff in this case has not, as is required, presented “a written statement... [indicating]
whether or not expert opinion testimony is necessary to prove” a deviation from defendant’s
standard of care related to the Tucson claims. A.R.S. § 12-2603(A). And plaintiff has admitted
that he has failed to obtain a written expert certification in support of his Petersburg claims. See
DEX 2. He instead seems to argue that the actions of the medical professionals at the institutions
in Tucson and Petersburg were so grossly negligent that no expert testimony would be necessary
to prove a deviation from their duties. See Dkt. No. 35, p. 9. For reasons explained in more
depth below, even forgiving plaintiffs failure to submit a written statement in compliance with
Arizona law, plaintiffs Tucson claims are time-barred. And, contrary to plaintiffs contentions,
whether Petersburg officials deviated from their standard of care is not within a lay person’s
knowledge, and plaintiffs Petersburg claims therefore require expert testimony to prevail.2

2 Plaintiff urges the Court to “appoint an expert witness due to Mr. Modisette’s Indigent status.”
Dkt. No. 35, p. 9. But, “[t]he in forma pauperis statute, 28 U.S.C. § 1915, does not authorize
federal courts to appoint or authorize payment for expert witnesses for prisoners or other indigent
litigants. Ordinarily, the plaintiff must bear the costs of his litigation, including expert expenses,
even in pro se cases.” Pickens v. Lewis. 2017 WL 2198342, at *2 (W.D.N.C. May 18,2017)
(citing Pedraza v. Jones. 71 F.3d 194,196 (5th Cir. 1995)); Malik v. Lavalley. 994 F.2d 90 (2d
Cir. 1993); Boring v. Kozakiewicz. 833 F.2d 468,474 (3d Cir. 1987) (finding inmate’s dilemma
in being unable to proceed with suit because of inability to pay for expert witness was no
different than that of non-prisoner claimants who face similar problems; to authorize government
funding for such fees would, in effect, be granting inmates better treatment than non-inmates).
7

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 8 of 12 PagelD# 458

Accordingly, plaintiffs failure to obtain the certification of an expert is fatal to his Petersburg
claims.
L

Tucson Claims

“A tort claim against the United States shall be forever barred unless it is presented in
writing to the appropriate Federal agency within two years after such claim accrues... .” 28
U.S.C. § 2401(b). A claim accrues when the plaintiff knows or reasonably should have known
of the existence and the cause of his injury. See United States v. Kubrick, 444 U.S. Ill, 123-25
(1979). Here, the immediate cause of plaintiffs injury was a seizure and a resulting fall.
Plaintiff claims these events occurred in January 2012, see Am Compl. at f 8, and that Dr.
Longfellow informed plaintiff of disc irregularities the following month, see Am. Compl. at If 10.
Following his transfer, in April of 2014, plaintiff also expressed to Petersburg staff that he was
aware of his neck injury. See id. at If 12. Accordingly, any claim for nontreatment of plaintiff s
injury accrued as early as February of 2012, over five years from the date plaintiff ultimately
filed his FTCA paperwork with BOP, or as late as April 2014, over three years from plaintiff s
filing date. In either case, plaintiffs claims are barred.
Plaintiff relies on two theories to argue that his claims are not time-barred. He states first
that, by virtue of the “continuous treatment rule,” his claims are not barred. See Dkt. No. 35, p.
7. This doctrine holds that a statute of limitations does not begin to run on a medical malpractice
claim so long as a claimant remains under the “continuous treatment” of a physician whose
negligence is alleged to have caused the injury underlying the claim; once the treatment ceases,
the claim accrues. See Miller v. United States. 932 F.2d 301,304 (4th Cir. 1991). Invoking this
theory, plaintiff appears to suggest that, because he allegedly continued to receive deficient care
after his transfer to Petersburg, his Tucson claims were not barred. But the “continuous
8

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 9 of 12 PagelD# 459

treatment” theory applies only “when the treatment at issue is for the same problem and by the
same doctor, or that doctor’s associates or other doctors operating under his direction,” not to
“treatment from succeeding government physicians ... who [are] not claimed to have acted in
direct concert with” the original physician. Id. at 305 (quoting Brown v. United States, 353 F.2d
578, 580 (9th Cir. 1965)). Accordingly, this argument offers plaintiff no salvation.
Nor does—to the extent plaintiff relies on it—the “continuing violation” doctrine save the
Tucson claims from the FTCA’s statute of limitations. This theory states that “when a harm has
occurred more than once in a continuing series of acts or omissions, a plaintiff under certain
circumstances may allege “a continuing violation” for which the statute of limitations runs anew
with each violation.” DePaola v. Clarke. 884 F.3d 481,486 (4th Cir. 2018). A plaintiff relying
on this theory, however, must allege that the “illegal act was [part of] a fixed and continuing
practice.” Fleming v. United States. 200 F. Supp. 3d 603,610 (D. Md. 2016); see also A Society
Without a Name v. Virginia. 655 F.3d 342,348 (4th Cir. 2011). In this case, plaintiff alleges
discrete acts or omissions committed at different facilities in different years by different
physicians all exercising independent medical judgment. Plaintiff’s allegations, then, do not
establish the existence of a continuing practice.
In summary, here, where plaintiff filed an administrative claim with BOP more than two
years after his claim had accrued, and where the continuous treatment and continuing violation
doctrines do not apply, plaintiff’s claims are barred by the FTCA’s statute of limitations.
Accordingly, these claims will be dismissed as time-barred.
••

Petersburg Claims

Plaintiff contends that Petersburg doctors failed “to provide and render reasonable
medical care ... under the circumstances” and failed “to diagnose Plaintiff s neck injury and to
9

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 10 of 12 PagelD# 460

treat [his] injuries appropriately and expeditiously.”3 See Am. Compl. ^ 23. More specifically,
plaintiff alleges that “nothing was done in a timely manner” after he informed Physician
Assistant Hall of his neck injury, see id. at ^[ 12, that Dr. Kalluri recommended plaintiff not
receive surgery but instead treat his condition with physical therapy, gabapentin, and injections,
see id at 17, and that Dr. Marrero later disapproved of providing plaintiff the gabapentin
referred by Dr. Kalluri, see id. at K 18. Plaintiff asserts that these acts or omissions constituted
medical malpractice and, in his responses to defendant’s motion, argues that they represent
negligent acts “within the range of [a] jury’s common knowledge and experience” such that an
expert certification is unnecessary. See Va. Code § 8.01-20.1.
Plaintiff is incorrect that his claims do not require expert certification. Whether a
doctor’s decision to conduct an x-ray, MR!, or other imaging procedure while foregoing another
constitutes a violation of his or her duty is not a matter of “common knowledge and experience.”
Similarly, whether physicians deviate from their standard of care by waiting to provide a patient
diagnostic assessment or treatment within a certain timeframe is a question answerable only by
an expert. See Bond v. United States. 2008 WL 4774004, at *3 (E.D. Va. Oct. 27,2008)
(holding that VMMA certification required for plaintiffs argument that two-month delay in

3 Plaintiff also specifically claims that Tucson doctors’ failed to conduct an MRI after his seizure
and fall, that defendant negligently trained, supervised, and hired the individuals who ultimately
treated plaintiff, see Am. Compl. \ 23(d), and that defendant failed to ensure all inmates in the
BOP’s custody “received adequate” and “timely healthcare,” see Am. Compl. 23(f)-(g). To
the extent that plaintiff has even alleged facts in support of these claims, they must nevertheless
be dismissed based on plaintiffs failure to administratively present them prior to initiating this
suit. See Am. Compl., pp. 6-8; Henderson v. United States, 785 F.2d 121,123 (4th Cir. 1986)
(“[P]rior to bringing an action against the United States, a claimant shall have first presented the
claim to the appropriate Federal agency”) (internal quotations omitted) (quoting 28 U.S.C. §
2675(a)). The presentation requirement is jurisdictional, and plaintiffs failure to present several
of the claims articulated in his complaint therefore necessitates their dismissal. See Ahmed v.
United States. 30 F.3d 514,516 (4th Cir. 1994).
10

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 11 of 12 PagelD# 461

examination of finger caused by defendants constituted improper treatment). Whether electing
to pursue non-surgical routes of treatment when surgery is an option constitutes a deviation from
a doctor’s standard of care, too, is outside the common knowledge and experience of a jury. See
Rundle v. Carter. 91 Va. Cir. 177,2015 WL 12591842, at *3 (Va. Cir. Ct. 2015) (“Given that a
jury is unlikely to be equipped with the knowledge necessary to determine whether Defendants’
failure to schedule Plaintiffs surgery according to her wishes ... complies] with or deviate[s]
from the applicable standard of care, the Court finds that expert certification was necessary”).
Finally, determination of whether a doctor’s decision to provide one form of prescription
medication over another constitutes a deviation of a doctor’s duty of care requires expert
testimony. See Parker v. United States. 475 F. Supp. 2d 594, 597 (E.D. Va. 2007) (“[I]t is
difficult to imagine that a factfinder, equipped solely with an average
person’s common knowledge and experience, may appropriately judge, inter alia, (i) what
actions the prison medical staff should have taken when plaintiff complained of headaches ...
and (iii) what the proper course of treatment was for plaintiff s condition”). Judgment will enter
in favor of defendant as to these claims.4

4 In his surreply, plaintiff requests that the Court grant discovery so plaintiff may ascertain facts
or evidence to survive defendant’s motion for summary judgment. See Dkt. No. 40. Federal
Rule of Civil Procedure 56(d) allows for discovery “[i]f a nonmovant shows by affidavit or
declaration that, for specified reasons, it cannot present facts essential to justify its opposition.”
Fed. R. Civ. P. 56(d). Here, where the only issue relevant to summary judgment is whether
plaintiff has obtained an expert certification as required by the VMMA, he has not established.
that he was unable to present facts essential to justify his opposition. In fact, plaintiff admits his
failure to obtain an expert certification. See DEX 2. And inmates proceeding under the FTCA
are not exempt from the certification requirement “despite the fact that [their] prisoner status
adds hurdles to any attempt to obtain an expert.” Kerr v. U.S. Dept, of Justice, 2008 WL
3928701, at *4 (E.D. Va. Aug 21,2008). Plaintiffs request for discovery is therefore denied.
11

, •

Case l:18-cv-00533-LO-MSN Document 47 Filed 11/26/19 Page 12 of 12 PagelD# 462

B.

Exhaustion of Remaining Petersburg Claims
To the extent that plaintiff has alleged facts supportive of claims that arose after the filing

of his FTCA administrative paperwork in December 2017 or January 2018, those claims are
unexhausted and must be dismissed. See Henderson. 785 F.2d 121; Ahmed, 30 F.3d 514.
C.

Remaining Motion to Clarify PLRA Fees
Plaintiff has filed a “Motion to Clarify and Cure and to Modify PLRA Fees.” Dkt. No.

29. In his filing, plaintiff requests that this Court combine the $350.00 filing fee for this action
with the $505.00 filing fee plaintiff incurred for his appeal such that he is charged 20% of his
monthly trust deposits only once and not 20% for each action (this case and the appeal). Plaintiff
effectively requests permission to pay the fees for each case sequentially rather than
simultaneously. But the Supreme Court has addressed this issue and held that 28 U.S.C.
§ 1915(b) “calls for monthly payments of 20 percent of the preceding month’s income
simultaneously for each action pursued.” Bruce v. Samuels, 136 S. Ct. 627,632 (2016) (internal
quotations omitted) (quoting 28 U.S.C. 1915(b)). Accordingly, plaintiffs motion must be
denied.
IV. Conclusion
For the reasons stated above, several of plaintiffs claims are either barred by the FTCA’s
statute of limitations or are unexhausted and must be dismissed, and defendant is entitled to
judgment in its favor as to the others. An appropriate order will issue.

Entered this

day of

2019.

/Qg>V>

Alexandria, Virginia

12

Is/
Liam O’Grady
\J
United States District Judge

